HHS/OIG, Audit -"Review of Medicaid Support for Graduate Medical Education in Ohio
During Fiscal Year 2000,"(A-05-05-00032)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Support for Graduate Medical
Education in Ohio During Fiscal Year 2000," (A-05-05-00032)
March 22, 2006
Complete
Text of Report is available in PDF format (261 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine whether (1) Ohio followed the approved
State plan in administering the Medicaid graduate medical education program and (2) intergovernmental
transfers included any program funds.  We found that contrary to the State plan, Ohio
paid $1.4 million ($823,883 Federal share) in Medicaid graduate medical education funds to
18 non-teaching hospitals.  The payments were made because Ohio did not periodically
update information on hospital eligibility.  Concerning our second objective, we found
that intergovernmental transfers did not involve graduate medical education funds.
We recommended
that Ohio report a $823,883 financial adjustment and review the eligibility of each teaching
hospital annually.  The State questioned the basis for the recommended financial adjustment,
but did indicate that Ohio would collect the funds that are due back from the hospitals.